Audit Report




OIG-13-034
The Department of the Treasury Was Not in Compliance
With the Improper Payments Elimination and Recovery Act for
Fiscal Year 2012
March 15, 2013




Office of
Inspector General
Department of the Treasury
Contents



Audit Report

  Results in Brief ........................................................................................... 1

  Background ............................................................................................... 2

  Findings and Recommendations .................................................................... 5

      Treasury’s Corrective Action Plan to Become Compliant with IPERA Was Not
      Complete .............................................................................................. 5
      Recommendation.................................................................................... 6

      Payment Recapture Audit Reporting Needs Improvement .............................. 6
      Recommendations .................................................................................. 8

Appendices

Appendix   1:     Objectives, Scope, and Methodology..........................................               9
Appendix   2:     TIGTA’s Report on IRS’s Compliance With IPERA .........................                   10
Appendix   3:     Management Response ............................................................          30
Appendix   4:     Major Contributors to This Report ..............................................          32
Appendix   5:     Report Distribution ..................................................................    33

Abbreviations

  AFR                  Agency Financial Report
  DO                   Departmental Offices
  EITC                 Earned Income Tax Credit
  FY                   Fiscal Year
  IPERA                Improper Payments Elimination and Recovery Act of 2010
  IPIA                 Improper Payments Information Act of 2002
  IRS                  Internal Revenue Service
  OIG                  Office of Inspector General
  OMB                  Office of Management and Budget
  PAR                  Performance and Accountability Report
  RCG                  Risk and Control Group
  TIGTA                Treasury Inspector General for Tax Administration




                       Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034)        Page i
This Page Intentionally Left Blank.
                                                                                   Audit
OIG
The Department of the Treasury
                                                                                   Report
Office of Inspector General



                  March 15, 2013

                  Nani A. Coloretti
                  Assistant Secretary for Management

                  This report presents the results of our audit of the Department of
                  the Treasury’s (Treasury) compliance with Public Law 111-204,
                  Improper Payments Elimination and Recovery Act of 2010 (IPERA).
                  IPERA was enacted to help Federal agencies strengthen the
                  framework for reducing and reporting improper payments. IPERA
                  amended the Improper Payments Information Act of 2002 (IPIA)
                  and expanded requirements for improper payment reporting and
                  recovering overpayments across a broad range of federal programs.

                  This mandated audit requires that we assess and report on
                  Treasury’s compliance with improper payment requirements. The
                  objectives, scope, and methodology of our audit are described in
                  appendix 1.

                  This report incorporates the results of the Treasury Inspector
                  General for Tax Administration’s (TIGTA) assessment of the
                  Internal Revenue Service’s (IRS) compliance with IPERA. TIGTA
                  issued its report on February 25, 2013. That report is included as
                  appendix 2 of this report. The results of our audit, insofar as they
                  relate to IRS, are based solely on TIGTA’s report.


Results in Brief
                  Treasury was not in compliance with IPERA for Fiscal Year (FY)
                  2012 due to IRS’s Earned Income Tax Credit (EITC) improper
                  payments reporting deficiencies reported by TIGTA. Specifically,
                  IRS did not publish annual EITC improper payment reduction
                  targets and has not reported an improper payment rate of less than
                  10 percent. This is the second consecutive year we have
                  determined that Treasury is not in compliance with IPERA due to
                  IRS’s EITC improper payments reporting deficiencies.



                  Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034)   Page 1
             In accordance with IPERA, since we have determined that Treasury
             was not in compliance for 2 consecutive fiscal years for the same
             program, the Director of the Office of Management and Budget
             (OMB) will review the EITC program and determine if additional
             funding will help Treasury come into compliance. If the Director of
             OMB determines that additional funding will help Treasury come
             into compliance, Treasury will need to obligate additional funding
             to intensified compliance efforts.

             Our audit also identified the need for Treasury to improve its IPERA
             reporting. Specifically, Treasury’s corrective action plan to become
             compliant with IPERA did not address IRS’s EITC improper
             payments reporting deficiencies and we noted errors and omissions
             in Treasury’s payment recapture audit reporting.

             TIGTA also reported that (1) Information provided to Treasury was
             incomplete in that information related to certain compliance
             activities was omitted from reporting in Treasury’s FY 2012
             Agency Financial Report (AFR) and IRS’s estimated EITC improper
             payment rate did not include an estimate of EITC underpayments,
             and (2) IRS faces significant challenges to becoming compliant
             with IPERA related to the process of assessing improper payment
             risk for IRS revenue program funds and the characteristics of the
             EITC program.

             We are making three recommendations in this report to address our
             findings. In its written response to this report, which is included as
             appendix 3, Treasury agreed with our recommendations and
             provided a description of its planned corrective actions.

Background
             The Improper Payments Elimination and Recovery Act of 2010

             IPERA amended IPIA by strengthening agency reporting
             requirements. It also requires increased agency efforts by
             expanding the types of payments that should be reviewed and
             lowering the threshold of annual outlays that requires agencies to
             conduct payment recapture audit programs.




             Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034)   Page 2
On April 14, 2011, OMB issued Revised Parts I and II to
Appendix C, “Requirements for Effective Measurement and
Remediation of Improper Payments,” of OMB Circular No. A-123,
Management’s Responsibility for Internal Control, on the
implementation of IPERA (OMB Circular No. A-123, Appendix C).
This guidance provided federal agencies with the required steps to
follow in (1) identifying and reporting on improper payments and
(2) performing and reporting on payment recapture audits.

To determine compliance with IPERA and OMB guidance, we are
required to review the AFR and any accompanying information to
assess whether Treasury has:

    •   Published an AFR for the most recent fiscal year and posted
        that report and any accompanying materials required by
        OMB on Treasury’s website;
    •   Conducted a program specific risk assessment for each
        program or activity that conforms with 31 U.S.C. §3321, if
        required;
    •   Published improper payment estimates for all programs and
        activities identified as susceptible to significant improper
        payments under its risk assessment, if required;
    •   Published programmatic corrective action plans in the AFR, if
        required;
    •   Published, and has met, annual reduction targets for each
        program assessed to be at risk and measured for improper
        payments;
    •   Reported a gross improper payment rate of less than 10
        percent for each program and activity for which an improper
        payment estimate was obtained and published in the AFR;
        and
    •   Reported information on its efforts to recapture improper
        payments.

If an agency does not meet one or more of these requirements,
then it is not compliant with IPERA.

Improper Payment Risk Assessment

Treasury’s Risk and Control Group (RCG), under the Deputy Chief
Financial Officer, issued Treasury-Wide Guidance for the FY 2012


Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034)   Page 3
Implementation of Circular A-123, Appendix C, Requirement for the
Effective Measurement and Remediation of Improper Payments
(Treasury’s IPERA Guidance) to all Treasury bureaus and
Departmental Offices (DO) subcomponents (hereafter we refer to
bureaus and DO subcomponents collectively as “components”).
RCG identified the programs for which components were required
to assess the risk of improper payment. Treasury components used
the Improper Payments Elimination and Recovery Risk Assessment
Questionnaire for FY 2012 developed by RCG to assess the level of
risk for each program identified. Each component was to provide
the results and documentation for all risk assessments to RCG. For
any program identified as having a high risk for improper payment,
the responsible component was also required to provide the
following information for inclusion in the AFR:

    •   The rate and amount of improper payment;
    •   The root causes of improper payments;
    •   Actions taken to address the root causes;
    •   Annual improper payment reduction targets; and
    •   A discussion of any limitations to the component’s ability to
        reduce improper payments.

For FY 2012, Treasury identified the EITC, administered by IRS, as
its only high risk program. Treasury provided ongoing and planned
corrective actions to reduce the EITC’s improper payment rate in its
FY 2012 AFR.

Payment Recapture Audits

IPERA requires agencies to conduct payment recapture audits (also
known as recovery audits) for each program and activity that
expends $1 million or more annually, if conducting such audits
would be cost-effective. A payment recapture audit is a review and
analysis of an agency’s or program’s accounting and financial
records, supporting documentation, and other pertinent information
supporting its payments, that is specifically designed to identify
overpayments. Agencies are required to have a cost-effective
program of internal control to prevent, detect, and recover
overpayments.




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034)   Page 4
            Treasury’s IPERA Guidance required each component to complete a
            worksheet providing a consistent reporting format that includes
            information on the component’s payment recapture audits. The
            worksheets were to be submitted to RCG for review and the
            results were then consolidated and reported in the AFR.


Findings and Recommendations
Finding 1   Treasury’s Corrective Action Plan to Become Compliant
            with IPERA Was Not Complete

            In our FY 2011 audit of Treasury’s compliance with IPERA, we
            concluded that Treasury was not in compliance with IPERA due to
            IRS’s EITC improper payments reporting deficiencies reported by
            TIGTA. In accordance with OMB Circular No. A-123, Appendix C,
            Treasury was to submit, within 90 days of the determination of
            non-compliance, a plan to Congress describing the actions that it
            will take to come into compliance with IPERA.

            The plan was to include:

                •   Measurable milestones to be accomplished in order to
                    achieve compliance for each program or activity;
                •   The designation of a senior agency official who shall be
                    accountable for the progress of the agency in coming into
                    compliance for each program or activity; and
                •   The establishment of an accountability mechanism, such as
                    a performance agreement, with appropriate incentives and
                    consequences tied to the success of the senior agency
                    official in leading agency efforts to achieve compliance for
                    each program and activity.

            On June 11, 2012, Treasury submitted its plan to Congress;
            however, the plan did not address the non-compliance with IPERA
            due to IRS’s EITC improper payments reporting deficiencies. The
            plan only addressed the findings and recommendations regarding
            reporting on payment recapture audits.

            According to Treasury officials, its plan to Congress did not
            address IRS’s EITC improper payments reporting deficiencies
            because Treasury believed that by reporting on it in its AFR


            Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034)   Page 5
            submission, the OMB Circular No. A-123, Appendix C requirement
            was satisfied. We discussed Treasury’s position with OMB staff
            and were told that Treasury’s reporting in its AFR did not satisfy
            the IPERA reporting requirement.

            Recommendation

            We recommend that the Assistant Secretary for Management
            ensure that Treasury submits a comprehensive plan to Congress
            that includes a description of the corrective actions Treasury will
            take to remediate non-compliance with IPERA due to IRS’s EITC
            improper payments reporting deficiencies.

            Management Response

            Treasury stated that it is working with OMB to require EITC annual
            improper payment estimate updates instead of reduction targets.
            IRS also plans to work with OMB to develop supplemental
            measures for EITC that gauge the impact of compliance and
            outreach efforts in lieu of developing error reduction targets.
            According to Treasury, IRS currently has corrective actions in place
            to reduce the improper payment rate, but there are numerous
            barriers, including authentication errors, verification errors, the
            complexity of the tax law, and the structure of the EITC. These
            actions will help ensure that Treasury submits a comprehensive
            plan to Congress.

            OIG Comment

            Treasury’s commitment to submit a comprehensive plan to
            Congress generally meets the intent of our recommendation. It
            must be kept in mind that the contemplated change to report EITC
            annual improper payment estimate updates instead of reduction
            targets is a deviation from IPERA. TIGTA’s report, included as
            appendix 2, provides additional context as to the challenges faced
            by IRS to becoming compliant with IPERA.

Finding 2   Payment Recapture Audit Reporting Needs Improvement

            During our review of Treasury’s payment recapture audit reporting
            in the AFR, we identified the following:



            Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034)   Page 6
    •   Payment Recapture Audit Reporting table - The improper
        payments amount recovered in FY 2012 was understated.
        The calculation of the improper payments amount recovered
        in FY 2012 did not include the recapture of improper
        payments before a receivable was set up for 7 of the 14
        sampled components tested, totaling $111,000.
    •   Disposition of Recaptured Funds table – The table did not
        include the disposition of all funds recaptured in FY 2012.
        Five (5) of the 14 sampled components tested did not report
        the disposition of $220,000 in unexpired recaptured funds
        when reporting data to RCG.
    •   Treasury did not report Treasury Managed Accounts
        administered by FMS as an activity it had determined would
        not be cost-effective to conduct a payment recapture audit
        program nor did it provide the related justification and
        analysis supporting this decision.

OMB Circular No. A-123, Appendix C, requires that agencies report
annually on their payment recapture audit program in their
Performance and Accountability Report (PAR)/AFR. This reporting
is to include improper payment amounts recovered in the current
year as well as a summary of how recaptured funds were disposed
of.

OMB Circular No. A-123, Appendix C, states “the agency shall
report in its annual PAR or AFR: (1) a list of programs and activities
where it has determined conducting a payment recapture audit
program would not be cost-effective; and (2) a description of the
justifications and analysis that it used to determine that conducting
a payment recapture audit program for these programs and
activities was not cost-effective.”

The payment recapture audit reporting deficiencies identified above
resulted from the misinterpretation or misunderstanding of
reporting requirements by Treasury and its components. As a
result, the FY 2012 improper payments amounts recovered,
disposition of recaptured funds, and programs for which Treasury
determined were not cost-effective to perform a payment recapture
audit were not reported completely and accurately in accordance
with OMB guidance.


Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034)   Page 7
Recommendations

We recommend that the Assistant Secretary for Management:

     1. Ensure that the current year total amounts of improper
        payments recovered and dispositions of recaptured funds
        are accurately reported in the PAR/AFR in accordance with
        OMB requirements.

     2. Ensure that Treasury reports in its PAR/AFR, all programs
        and activities where it has determined conducting a
        payment recapture audit program would not be cost-
        effective and a description of the justification and analysis
        supporting the decision.

Management Response

Treasury stated that it plans to enhance its annual IPERA guidance
and oversight activities to ensure that required improper payments
information is completely and accurately aggregated and reported
in the PAR/AFR.

OIG Comment

Treasury’s planned actions satisfy the intent of the
recommendations.

                                  ******

We appreciate the courtesies and cooperation extended to our staff
during this audit. Should you have any questions, you may contact
me at (202) 927-5400, or Mike Fitzgerald, Director, Financial Audit
at (202) 927-5789. Major contributors to this report are listed in
appendix 4.


/s/
Marla A. Freedman
Assistant Inspector General for Audit




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034)   Page 8
Appendix 1
Objectives, Scope and Methodology




The objective of our audit was to determine Treasury’s compliance
with IPERA; OMB Circular No. A-123, Appendix C; and OMB
Circular No. A-136, Financial Reporting Requirements. Our scope
did not include the review of programs and activities administered
by IRS. TIGTA is responsible for the audit of IRS’s compliance with
IPERA. TIGTA’s scope was limited to an assessment of EITC
information that IRS provided for inclusion in Treasury’s AFR. EITC
was the only program identified by the IRS for improper payment
reporting.

To accomplish our objective, we reviewed applicable laws, OMB
guidance, and Treasury-wide guidance related to IPERA;
interviewed key DO and component personnel; and performed
testing of Treasury’s risk assessment and payment recapture
audits. We reviewed the AFR to determine if Treasury complied
with the reporting requirements of IPERA. We conducted our
fieldwork in Washington, DC, from August 2012 to February 2013.

To review Treasury’s risk assessment process, we randomly
selected a sample of 27 of the 66 non-IRS programs identified by
Treasury for risk assessment. To determine the reasonableness and
accuracy of the information reported and compliance with the
applicable guidance for the sample, we reviewed the program risk
assessments and conducted interviews of personnel involved in
their preparation and review.

To review the payment recapture audit program, we randomly
selected a sample of 14 of the 20 non-IRS components. To
determine the reasonableness and accuracy of the information
reported, and compliance with the applicable guidance for the
sample, we reviewed the components’ submissions and conducted
interviews with component personnel, as well as reviewed
supporting documentation.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034)   Page 9
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 10
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 11
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 12
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 13
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 14
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 15
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 16
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 17
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 18
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 19
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 20
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 21
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 22
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 23
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 24
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 25
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 26
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 27
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 28
Appendix 2
TIGTA’s Report on IRS’s Compliance With IPERA




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 29
Appendix 3
Management Response




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 30
Appendix 3
Management Response




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 31
Appendix 4
Major Contributors To This Report




Joel A. Grover, Deputy Assistant Inspector General for Financial
  Management and Information Technology Audit
Michael Fitzgerald, Director, Financial Audit
Catherine Yi, Audit Manager
Myung Han, Audit Manager
Kenneth Harness, Auditor-in-Charge
Rufus Etienne, Senior Auditor
Robert Hong, Auditor
Colleen McElwee, Referencer




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 32
Appendix 5
Report Distribution




The Department of the Treasury

   Secretary of the Treasury
   Deputy Secretary of the Treasury
   Assistant Secretary for Management
   Deputy Chief Financial Officer
   Director, Risk and Control Group

Office of Management and Budget

   Controller, Office of Federal Financial Management
   OIG Budget Examiner

United States Senate

   Chairman and Ranking Member
   Committee on Homeland Security and Governmental Affairs

U.S. House of Representative

   Chairman and Ranking Member
   Committee on Oversight and Government Reform

U.S. Government Accountability Office

   Comptroller General of the United States




Treasury Was Not in Compliance With IPERA for Fiscal Year 2012 (OIG-13-034) Page 33
